T/

Case No.96-7212
IN THE UNITED STATES SUPREME COURT
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001

DAVID LOUIS WHITEHEAD,
PETITIONER,
V.
US COURT OF APPEALS FOR DC CIRCUIT
CASE NUMBER 96-7212
Dist. Ct. 96-CV-1616

PARAMOUNT PICTURES, TOUCHSTONE PICTURES, SIMON &
SCHUSTER INC, ET AL
RESPONDENTS,

PETITION FOR WRIT OF CERTIORARI
From District of Columbia Circuit Court (known as DC
Circuit)

David L. Whitehead
1906 Scott St.
Bossier, Louisiana 71111
318-820-5029 Cell
l

I. Question Presented

• Whether the High Court has jurisdiction (Authority)
to conduct judicial review from the Circuit court's
Order refusing to accept petitioner's related
pleadings and exhibits associated with orders,
recalling the mandates of serious tainted decisions
and related decisions,involving fraud on the court
and judicial conflicts of interest.
• Whether Circuit Judges had serious conflicts of
interest associated with fraud on the court affords
petitioner a second bite at the apple pertaining to
his litigations(Recalling Mandates in case and
related cases).

See US v. Beggerly, 1998.

• Whether a District Court judge should have recused
himself as a General Partner with White & Case law
firm and Partners and former Partners and Spouses
including the court's spouse in LLC Wallpark LLC,
in related case.
• Whether District Court Judge had jurisdiction to
hear second related case in 94cv2436 Whitehead v.
Paramount Pictures, et al.

2

• Whether District Court Judge had serious conflicts
in the case before the court: Whitehead v.
Paramount Pictures, et al,96cvl.616 associated with
Circuit Case Whitehead v. Paramount Pictures, et
al, 96-7212.
• Whether both District Court Judge had prior
knowledge of the petitioner relating to suing
Delegate Norton and Circuit Judge having ex parte
communication with petitioner prior to ruling
against him.
• Whether the second District court's spouse's
employment with Nixon & Peabody LLP having interest
in the petitioner cases before the General Partner
Judge of White & Case LLP and Wallpark LLC,
required the Judge to recuse himself.
• Whether the Circuit Judges should have recused
themselves having serious and fraudulent conflicts
of interest in petitioner's cases associated with
the Judge.
• Whether the Judge's law firm White & Case LLP and
the Circuit Judge's ruling adversely against
petitioner in the case represented Governor George
W. Bush in Bush v. Gore, 2000, requiring
disqualification.

3

•' Whether the Chief DC Circuit Judge (2009 judicial
panel) violated conflicts of interest laws and
statutes presiding on petitioner's cases as
President of Harvard University's Board of
Overseers with defendant's witnesses and employees.
• Whether District Court Judge (A General Partner
with the law firm and partners, former partners and
spouses in Wallpark LLC) should have recused
himself in second related case, or Circuit Court
judges should have disgualified themselves from
petitioner's cases due to serious conflicts.
• Whether the Circuit Court Judges (2009 Judicial
panel)should have recuse the judge, who had serious
conflicts of interest associated with Fraud on the
court.
• Whether Circuit Judge Douglas Ginsburg should have
recused himself in the petitioner's cases
(Whitehead v. Paramount Pictures, et al,96-7212
panel, and Whitehead v. Paramount Pictures, et al,
08-8010, Whitehead v. CBS Viacom, et al.,08-8015
and Whitehead v. FEC, FCC, et al.,08-8016 panel)
having ex parte communication with the petitioner
at the District of Columbia Motor Vehicles in
Southwest DC, while driving his White Convertible
Cadillac.

4

• Did the Circuit court Judge Douglas Ginsburg(967212 panel and related panel Whitehead v. Paramount
Pictures, et al., 08-8010, Whitehead v. CBS Viacom,
et al., 08-8015 and Whitehead v. FEC, FCC, et al.,
08-8016) violate prior Knowledge statutes having ex
parte meeting and contact with the petitioner
regarding the court's withdrawal of Supreme Court
nomination, due to prior drug use.
• Did Chief Judge (Merritt Garland (2009 panel) of
District of Columbia Circuit court violate
petitioner's constitutional rights (5th and 14th)
Amendments having prior knowledge of petitioner
stemming from his lawsuits before Judge Paul L.
Friedman and others.
• Whether opposing counsels in related cases had
prior knowledge of White & Case LLP and Wallpark
LLC Investors Enterprise associated with Judge
Friedman and others violating the statutes and
laws.
• Whether the Circuit court failure to issue
decisions to recall mandate, Vacate and Unseal
Federal Investigation (denying petitioner's motion
in Whitehead v. Paramount Pictures, et al 08-8010,
Whitehead v. CBS-Viacom, Inc, et al, 08-8015,
Whitehead v. Federal Election Commission, FCC, et
al 08-8016) violates petitioner's due process

5

rights for judicial due process and review (5th and
14th) amendments .
• Whether an Independent Action is allowed stemming
from Judge Aubrey Robinson's decisions (1996) in
the first related case to the second case before
Judge Paul Friedman, pursuant to the high court's
decision in US v. Beggerly, 1998.
• Whether fraud on the court allows judicial review
in this case, involving fraudulent sanction of
Judge Judith Rogers associated with $250 gift to
Judge Friedman and presided on appeals of
petitioner associated to Judge Friedman and his
General Partnership with White & Case LLP and
Wallpark LLC.
• Whether the Circuit Court's order (2020)(96-7212)
can be reviewed by this high court, relating to
cases in re: Whitehead v. Paramount Pictures, et
al, 08-8010; Whitehead v. Federal Election
Commission, et al, 08-8016, and Whitehead v. CBSViacom, Inc,, et al, 08-8015.
• Whether the Court should unseal in part the Federal
investigation in part, relating to what was
allegedly stolen and or infringed.

6

• Whether petitioner was improperly sanctioned by the
Circuit Court based on the activity between Circuit
Judge Judith Rogers giving Judge Paul Friedman a
$250 gift, and presiding on petitioner's appeals
tied to Judge Friedman.
• Whether the Circuit Court (panel 2009) should have
re-sanctioned petitioner after he initial paid
sanction fees cited in cases associated with
Circuit Judge Judith Rogers tied to Judge Paul
Friedman and his decisions involved with the
sanctioning.
• Whether the Circuit Court's sanctions based on
fraud with Judge Judith Rogers giving Judge Paul
Friedman, a $250 gift and presiding on petitioner's
appeals, and sanctioning petitioner.
• Whether related 10 cases before Judge Paul L.
Friedman involves Fraud on the court pertaining to
his General Partnership with White & Case LLP and
associates and partners and former partners and
spouses, having interest in petitioner's cases.

7

PARTIES TO THE PROCEEDINGS

Petitioner is David Louis Whitehead.

Respondents are Paramount Pictures, Simon & Schuster
and Touchstone Pictures of Walt Disney.

j

8

Table of Contents
Page
Questions Presented
Opinions Below
Jurisdiction ,
Tables of Authorities
Constitutional Provisions Involved,

2-7
14
10
10-11
12-13

Statement of the Case 1

15-24

Statement of the Case 2

..25-39

REASONS FOR GRANTING THE WRIT

CONCLUSION,

. . 39

47

APPENDIX Exhibit A.

9

Jurisdiction
This high court has jurisdiction for judicial review
pursuant to 28 U.S.C. Section 1254

(1) as amended. IFP

granted.
Petitioner paid in part original sanctions, to
proceed, but petitioner was re-sanctioned for payment
of added sanctions (panel 2009 panel having serious
conflicts of interest discussed in this petition for
Writ of Certiorari)

TABLE OF AUTHORITIES
Cases
US v. Beggerly, 1998.
Murchinson , 349 U.S. 133 (1955)
Turney v. State of Ohio, 273, U.S. 510, 532 (1927)
Ohralik v. Ohio State Bar Assn 436 U.S. 447, 462-68
(1978)
Offutt v. US, 348 U.S. 11, 14, 1954.
Aetna Life Insurance Company v. Lavoie, 475 U.S.
813 (1986)
Dred Scott v. Sandford, 60 U.S. 393, (1857)
Plessy v. Ferguson, 163, U.S. 537 (1986)
Baltia Air Lines Inc, v. Transaction Management
Inc, 98 F. 3d 640 (DC Cir. 1996). Hazel Atlas, 322 U.S. 238 64 S. Ct. 997, 88 L. ed
1250 (1944)
US v. Turkette, 452 U.S. 576, 583 (1981)
Boyle v. US, 2009.
10

• Liljeberg v. Health Svcs. Acq. Corp, 486 U.S. 847
(1988) .
• Liteky v. U.S. 510 U.S. 540 (1994).
• Brown v. Board of Education of Topeka, 347 U.S. 483
(1954) .
• Walker v. Time Life Films, Inc. 615 F. Supp. 430
S.D. N.Y. 1985.
• US v. Will, 449 U.S. 200, 212 (1980)
• McCuin v. Texas Power & Light Co, 714 2d 1255 (5th
Cir 1983)
• Porter Singletary, 49 F.3d 1483, 1489 (11th Cir.
1995)
• Wolfson v. Colleen Concannon, et al.,.11-17634 (9th
Cir. 2016).
• Winter Defense Council 555 U.s. 7 (2008)
• Foman v. Davis, 371 U.S. 178, 83 S. Ct. 227, 9 L.
Ed. 2d 222 (1962)
• Bowden v. US, 176 F.3d 552 (D.C. Cir. 1999)
• Shaver v. Operating Eng Local Pension Trust Fund
332 F. 3d 1198 (9th Cir. 2003)
• Haines v. Kerner, 404 U.S. 519 (1972)

.

li

CONSTITUTIONAL AUTHORITIES AND STATUTORY PROVISIONS
INVOLVED
• U.S. CONSTITUTION, FIFTH AMENDMENT United States
Constitution in pertinent part provides: No person
shall be deprived of life, liberty, or property,
without due process of law.
• U.S. CONSTITUTION, Amendment Thirteenth, United
States Constitution in pertinent part provides: Neither
slavery nor involuntary servitude, except as a
punishment for crime whereof the party shall have been
duly convicted, shall exist within the United States,
or any place subject to their jurisdiction.
• U.S. CONSTITUTION, FOURTEENTH AMENDMENT Section 1,
|United States Constitution in pertinent part provides:
• No State deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of
the laws. • Litigants have mandatory constitutional
rights to appear before unbiased jurists who should
remain impartial to the parties in fact and law
involving cases. See in re: Murchison, 349 U.S. 133
(1955); Turney v. State of Ohio, 273 U.S. 510, 532
(1927); Ohralik v. Ohio State Bar Assn, 436 U.S. 447,
462-68 (1978); Offutt v. United States, 348 U.S. 11,
14, 1954; Aetna Life Insurance Company v. Lavoie, 475
12

U.S. 813 (1986). Dred Scott v. Sandford 60 U.S. 393,
reversed via 13th and 14th amendments, Plessy v.
Ferguson, 163, U.S. 537 (1986), and Brown v. Board of
Education, of Topeka, 347 U.S. 483 (1954) and Violation of

section 1981 of the Civil Rights Act of 1866.

• 28 U.S.C. SECTION 455 (a) states: (1) Any Justice, Judge or Magistrate of the
United States shall disqualify himself in any proceeding in which his impartiality
might reasonably be questioned. • Title 28 U.S.C. Section 455 (b) (4) pertains to
pecuniary and financial interest requires disqualification. • Title 28 U.S.C. Section
455 (a) (b) (1), (2), (3), (4), (b5i,ii,iii,iv) and 3clc pertains to conflicts, judicial bias
and previous employment associated with the litigation. • Federal Rules of Civil
Procedures 60 b, 60 bl, 60 b3, 60 b 6.

13

OPINIONS BELOW
The opinions of the Circuit Court denying petitioner's
motion for relief in above captioned case 96-7212 and
related cases 08-8010, 08-8015, and 08-8016 in
September Term, 2020.

* Appendix A, USCA District of Columbia Circuit dated September Term, 2020.

14

Statement 1 of the Case
(1)

Judicial Petition for review of DC Circuit
denying motion to recall mandate, vacate,
recusal, consolidate and unseal FBI Probe due
to fraud.

(2)

The issue before the court is whether Judge
Aubrey Robinson Jr. decisions in re:Whitehead
v. Paramount Pictures, et al., 96cvl616,
precluded petitioner from refiling his second
action before Judge Friedman, in re: Whitehead
v. Paramount Pictures, et al., 96cv2436. Judge
Robinson dismissed the petitioner's case to be
refiled in New York or California, and denied
rehearing of the issue.. The Circuit Court in
Whitehead v. Paramount Pictures, et al., 967212 affirmed decisions of Judge Robinson,

In

the second related case, Judge Friedman ruled
on or about November 22, 1996, that Res
Judicata did not prevent petitioner for
proceeding in the second related case 96cv2436
pursuant to Venue, and not the merits of the
action.

In any event, Judge Friedman dismissed

the second case on the merits and the court
dismissed the ten (10) other cases of the
petitioner's in favor for his law firm White &
Case and Wallpark LLC investors and clients
associated with these entities. This enterprise
15

goes into the RICO Statutes and conflicts of
interest laws of the United States judiciary
system. 28 U.S.C. Section 455 a, bl, b4, 5 I,
ii, iii, iv; and 3clc.
(3)

Judge Friedman's spouse Elizabeth Friedman also
a partner in White & Case and Wallpark LLC
investors ongoing association, enterprise and
her employment with Nixon and Peabody LLP, tied
to clients of White & Case LLP and Wallpark LLC
Investors, sued by the Petitioner, clearly
violates both statutes and laws of the United
States.

See "Title 18 U.S.C. 1962 (c), which

is part of RICO, makes it unlawful "for any
person employed by or associated with any
enterprise engaged in, or the activities of
which affect, interstate or foreign commerce,
to conduct or participate, directly or
indirectly, in the conduct of such enterprise's
affairs through a pattern of racketeering
activity or collection of unlawful debt."

See

UNITED STATES v. TURKETTE, 452 U. S. 576, 583, (1981)"
Also see BOYLE u. UNITED STATES (2009) ("to establish
a RICO association-in-fact "enterprise," the Government
must prove (1) an ongoing organization with a
framework, formal or informal, for carrying out its
objectives, and (2) that association members functioned
as a continuing unit to achieve a common purpose...") .

16

(4)

Petitioner argues fraud on the court and prior
knowledge of activities and events by Judges
Robinson, Friedman and Circuit Judge Douglas
Ginsburg.

Petitioner believes and assert that to the above
statement 1, supports his PETITION FOR WRIT OF
CERTIORARI PURSUANT to Arguments denying petitioner
access to the court due to fraud and Federal Rules of
Civil Procedures 28 U.S.C. Section 455 a, bl, b4, b5,
3clc, Rules statutes and case law: 60 B, 60 b3, and 60
b6 and case law in re: Hazel Atlas, 322 U.S. 238, 64 S.
Ct. 997, 88 L.ed 1250 (1944) fraud on the court; Also
see Marbury v. Madison, 1803; See Dred Scott v.
Sandford, 60 U.S.

(19 How.) 393 (1857), which was

wrongly decided by Chief Justice Roger B. Taney,

The

founding fathers (55) in (1787) had previously included
African Americans slaves as 3/5th of a person for tax
and representation purposes relating (Congress and The
Southern States). See "Three-fifths
compromise: compromise agreement between delegates from
the Northern and the Southern states at the United
States Constitutional Convention (1787) that threefifths of the slave population would be counted for
determining direct taxation and representation in the
House of Representatives." (Britannia). In addition the
definition includes: Under the compromise, every
enslaved American would be counted as three-fifths of a
17

person for taxation and representation purposes. This
agreement gave the Southern states more
electoral power than they would have had if the
enslaved population had been ignored entirely."

Here,

petitioner was denied access to the courts in violation
of US Constitutional Due Process clauses (5th and 14th)
Amendments on fundamental fairness and laws, citing
Dred Scott.

(Also see Violation of section 1981 of the Civil Rights

Act of 1866. also see fraud involving the Attorneys in the case via in re: Baltia
Air Lines, Inc., Appellant, v. Transaction Management,
Inc., Appellee, 98 F.3d 640 (D.C. Cir. 1996)(whereas
opposing counsels had knowledge of the ongoing
enterprise and perjury of Judge Paul L. Friedman's
General Partnership with White & Case LLP and
associates tied to Wallpark LLC Investors, clearly in
violation of the federal fraud statutes and criminal
laws 18 U.S.C. 1962 as amended.
2
The 2009 judicial panel voting decisions to deny Judge
Friedman's recusal was wrongly decided, based on the
court's General Partnership with White & Case LLP
associates with Wallpark LLC Investors, and the Circuit
Panel's serious conflicts of interest, which will be
discussed in Statement 2.
Moreover, the court, Judge Friedman is associated with
Judge Robinson who presided on the related case in re:
Whitehead v.. Paramount Pictures, et al., 96cvl616.
18

Judge Friedman clerked for Judge Robinson, Jr, and the
two jurists presided together on the District of
Columbia's Judicial Nomination Commission by Delegate
Norton, who petitioner sued in Whitehead v. Gates,
Norton, 92cv917.

Both Jurists Judges Robinson and

Friedman were assigned petitioner's cases after they
resigned from the Norton's Commission, clearly showing
obvious and clear and blatant retaliation, bias and
conspiracy.

(See Liljeberg v. Health Svcs. Acq. Corp.,

486 U.S. 847 (1988; See Litkey v. United States,
510 U.S. 540,554 (1994)

("Opinions formed by the judge

on the basis of facts introduced or events...) .

3

The totality of the Circuit Court's tainted judicial
' decisions (2009), and The Circuit court's (2020)
refusal to grant judicial review, Petitioner reguest
that the high court order lower court to hear his
appeals on whether Circuit court's order refusing to
grant and docket the petitioner's motion to recall
mandate, vacate and/or recusal (08-8010, 08-8015, and
08-8016). Petitioner's Writ of Certiorari should be
allowed based on federal Fraud laws and statutes cited
28 U.S.C. Section 455 a, bl, b4, b5, and Rules 60 B, 60
b3, and 60 b6 and case law in re: Hazel Atlas, 322 U.S.
238, 64 S. Ct. 997, 88 L. ed 1250(1944) fraud on the
19

court.

Also see Marbury v. Madison, 1803 and Dred

Scott v. Sandford, 60 U.S.

(19 How.) 393 (1857),

Violation of section 1981 of the Civil Rights Act of 1866 and other laws
and statutes associated with this petition.
In short, Circuit Court panel(96-7212) had conflicts of
interest and the (08-8010, 08-8015, and 08-8016)panel
failed to rule on petitioner's pleading to Recall
Mandates, vacate and Unseal Federal Investigation due
to conflicts of interest, judicial bias and fraud on
the court.

The earlier Circuit Court panels also had

serious conflicts sanctioning petitioner related to
Judge Friedman's fraud involving petitioner's cases.
The FBI Investigation referred by the Department of
Justice (Criminal Chief Mary J. Mudrick,US Department
of Justice- Western Division of Louisiana, April 12,
2012), will show causation to allow the high court to
order lower courts to unseal FBI report in part and in
camera on the alleged massive theft and fraud involving
petitioner's copyrights. Petitioner's reguest is based
on the theory, reviewing, if anything, was massively
infringed, or stolen, which is listed in the federal
20

report?

In short, based on this petition and alleged

facts, both Judge Robinson, Jr, and Judge Friedman had
prior knowledge of petitioner due to petitioner's case
filed against his employer in 1990, political candidate
Eleanor Holmes Norton.

Attorney Friedman stated in his

1994 Senate Confirmation Hearings, that he was chair of
Ms'. Norton's 1990 and 1992 political campaigns, and Ms.
Norton became Delegate of District of Columbia.
Attorney Friedman stated in his 1994 Senate
Confirmation testified for his judgeship that he
chaired Ms. Norton recommended him to President Bill
Clinton to become a federal judge. Petitioner sued
Delegate Norton in 1992 and 1993 in re: Whitehead v.
Gates, Norton, 92cv917 USDC DC; And Whitehead v.
Woosley, Norton, 93cvl363, E.D. VA.

In 1993, Attorney

Friedman presided as chair of Norton's District of
Columbia Judicial Nomination Commission.

See Liteky v.

US, 510 U.S. 540 (1994). Petitioner also sued Delegate
Norton in the Federal Circuit Court. One of the members
of the Judicial Nomination Commission was Howard

21

University's Patricia Worthy associated with Attorney
Friedman on the commission adding to the conflicts.
See Attached Exhibit 2.
In short, both Judges Friedman and Merritt Garland were
assigned petitioner's cases, once the jurists became
federal judges from the Commission and Department of
Justice.

28 U.S.C. Section 455 a, bl. Moreover, Judge

Aubrey Robinson, Jr, was assigned petitioner's cases
and his aunt's case, after resigning from the Norton
Judicial Nomination Commission.
a, bl, b2.

28 U.S.C. Section 455

In short, Judges Friedman and Robinson, Jr,

retaliated against petitioner for Delegate Norton; and
Judge Garland, on (2009 panel) retaliated against
petitioner for President Bill Clinton, who petitioner
also sued before Judge Friedman (1999). Further noting
that Judge Friedman was nominated by Mr. Clinton. Judge
Garland also ruled against petitioner in 1998 relating to Clinton's nomination of
Judge Friedman to the federal bench, and presiding on petitioner's cases tied to
Viacom and Hillary Clinton. Viacom published most of Ms. Clinton's books,
including the $8 million book deal disputed by Senate Ethics Committee.
22

Once Judge Garland gain his federal judgeship, the court presided on petitioner's
case, similarly in the same fashion and assignments of Judges Robinson and
Friedman on petitioner's cases.

Petitioner believes and argues that his petition for
Writ of Certiorari is timely presented to the Supreme
Court based on the decision order of the United States
Court of Appeals for District of Columbia Court,
issuing a rejection of petitioner's motion on December
16, 2020.

The Appeals Court failed to issue separate

or consolidated joint decisions relating to in re:
David L. Whitehead v. Paramount Pictures, et al., 967212, and related cases in re: Whitehead v. Paramount
Pictures, et al., 08-8010, Whitehead v. FEC, FCC, et
al., 08-8016 and Whitehead v. CBS Viacom, et al., 088015.

See judicial review in re: Marbury v. Madison,

1803. In short, petitioner believes and assert that the
high court has jurisdiction over the Circuit Court's
judge ex parte communication with petitioner (order in
96-7212 and above related cases 08-8010, 08-8015,088016) for judicial review.

Moreover, the high court
23

has discretion to take issue on the fraudulent
sanctioning of the petitioner's tied to Circuit Judge
Judith Rogers, which is possibly discussed in the FBI
report. The totality and continuation of the fraud on
the court went on for years, allowing the Hollywood
studios to run the board and destroy the entertainment
market for the petitioner.

See Walker v. Time Life

Films, Inc. 615 F. Supp. 430 S.D. N.Y. 1985.
Petitioner reguests that the court reverse and/or order
Circuit Court to rule on the cases, all of which,
involves judicial conflicts and serious fraud on the
court, including 96-7212 Whitehead v. Paramount
Pictures, et al.

(See attachment of records (Motion and

exhibits) filed with the Circuit Court but denied. See
Exhibit 1).

24

Statement 2 and History of Cases for
Judicial Review to Recall Mandates
There were massive judicial conflicts
involving petitioner's cases violating the
federal statutes. 28 U.S.C. 455, Rule 60 b6.
1. Petitioner sued Paramount Pictures defendants before
Judge Aubrey Robinson, who issued an opinion
dismissing the case David L. Whitehead v. Paramount
Pictures, et al.,96cvl616,(sua sponte), and ordered
petitioner to refile his case in New York or
California.

On Reconsideration, on venue, the court

denied the motion, but appears to rule on the merits
of the case within the body of the order (case
involving a Pro se litigant). Further, noting that
the court ruled while District of Columbia Attorney
Jepunah Lawrence, who attempted to review the
petitioner's case file and enter an appearance to
represent petitioner.

There was an investigation on

Attorney Lawrence's attempt to represent petitioner.
Attorney Lawrence was also representing petitioner's
aunt Linda J. Smith, during the same time period
before the same judge, Judge Robinson.

(Smith v. DC,

25

96cvl006).

There was a record of the investigation

involving Attorney Lawrence attempts to review the
case file, but its missing from the District Court's
docketing system.
2. Petitioner refiled his second case in Superior
Court, against Paramount Pictures, et al, defendantrespondents, removed by Defendants to Federal Court,
reassigned to Judges Penfield Jackson, Judge Robinson
and Judge Friedman by Judge Lamberth, who recused
himself in the related case in re: Whitehead v.
Gates, Norton. 92cv917. Judge Lamberth reassigned
case 92cv917 to Judge Norma Johnson, who presided on
the District of Columbia Judicial Nomination
Committee with Judge Friedman and Judge Robinson.
Judge Lamberth also reassigned the related case in
re: David L.

Whitehead v. Deutch, 96cv420 to Judge

Friedman, possibly knowing that Delegate Norton was a
material witness and Judge Friedman was associated
with Ms. Norton.

See 28 U.S.C. 455 a, bl.

26

Judge Lamberth acts against the petitioner violated
the law.

For instance, Congress issued law

prohibiting the recused Judge from participating in
the reassignment of cases.

See United States v. Will. 449

U.S. 200, 212 (1980) (“In federal courts generally, when an individual
judge is disqualified ... by reason of § 455, the disqualified judge
simply steps aside and allows the normal administrative processes of
the court to assign the case to another judge not disqualified.”).
Also see McCuin v. Texas Power & Light Co.. 714 F.2d 1255 (5th
Cir. 1983), where the Fifth Circuit said that permitting a disqualified
judge to assign the case “would violate the congressional command
that the disqualified judge be removed from all participation in the
case” and might also “create suspicion that the disqualified judge will
select a successor whose views are consonant with his.”
3. Judge Paul L. Friedman who clerked for Judge
Robinson issued a Memorandum Order on or about
November 22-28, 1996, regarding the second case,
stating that petitioner had a right to refile his
case on the merits in his court. The court noted that
Judge Robinson ruled on venue, not on the merits of
27

the case. See Whitehead v. Paramount Pictures, et al,
96cv2436 (November 22-28, 1996, Order-J. Friedman).
Moreover, the court stated that petitioner had
appealed Judge Robinson's ruling, on appeal in re
David L. Whitehead v. Paramount Pictures, et al.,
96cv7212.
4.During the course of investigation, which is not
reguired by a Pro se litigant and/or any litigant
(“The Sixth Circuit We believe instead that litigants (and, of course, their
attorneys) should assume the impartiality of the presiding judge, rather than
pore through the judge’s private affairs and financial matters. Further, judges
have an ethical duty to “disclose on the record information which the judge
believes the parties or their lawyers might consider relevant to the question of
disqualification.” Porter v. Singletary, 49 F.3d 1483, 1489 (llth Cir. 1995).

Nonetheless, petitioner learned the following relating
to the investigation of the court:
• Judge Robinson and Judge Friedman were members of
the District of Columbia Judicial Nomination
Commission, established by Delegate Eleanor Holmes
Norton, who petitioner sued in Whitehead v. Gates,
Norton, 92cv917, assigned by recused Judge Royce
28

Lamberth to Judge Norma Holloway Johnson, who
replaced Judge Robinson on the Commission created
by Delegate Norton, a defendant. Also see Litkey
v. United States, 510 U.S. 540,554

(1994)

("Opinions formed by the judge on the basis of
facts introduced or events...) .

Judge Robinson and

Friedman should have recused themselves from
petitioner'’ s cases due to their relationships with
Delegate Norton.

Judge Norma Johnson should have

also recused herself from petitioner's case since
the court presided on Norton's Judicial Nomination
Commission, as well. 28 U.S.C. Section 455 a, bl,
b2, b3, b4.
• Judge Friedman was a General Partner with White &
Case LLP in Wallpark LLC investors, Partners and
former partners and spouses. The 9th Circuit in
Randolph Wolfson v. Colleen Concannon Louis Frank
Dominquez et al., no. 11-17634 (2016), prohibits
federal judges as Partners with law firms and their
investors.

A federal judge can only be a partner

29

with family members.

White & Case associated with

Wallpark LLC investors, Partners, former partners,
Judge Friedman and his spouse and other spouses
violated the statutes and law. 28 U.S.C. Section
455 a, bl, b4, b5i,ii,iii,iv,and 3clc.
Section 1962 C;

18 U.S.C.

See Randolph Wolfson v. Colleen

Concannon Louis Frank Dominquez et al., no. 1117634 (9th Cir. 2016) .
• White & Case LLP and Wallpark LLC investors
represents some of the respondents named in
petitioner's case before Judge Friedma, a General
Partner with White & Case law firm and Wallpark LLC
investors. 28 U.S.C. Section 455 a, bl, b2, b4,
b5i,ii, iii, iv, and 3clc.

Also see Liljeberg v.

Health Services Acguistion Corp, 486 U.S. 847 S.
Ct. 2194. (1988)

30

The courts wrongly viewed petitioner's pleadings as
drafted by a lawyer violating the statutes (Haines v. Kerner,
404 U.S. 519 (1972)), and when petitioner obtain or attempt to obtain counsel, the court
denied leave to amend complaint, or case file was not available for representational
purposes. 28 U.S.C. Section 455 a, b1.

In 2008, pursuant to Judge Friedman agreed to rule on
his recusal but never did do to the judicial
intervention of Judges Kavanaugh, Garland and Ginsburg,
all having serious conflicts of interest relating to
the petitioner's litigation.
bl, b2, b4.

28 U.S.C. Section 455 a,

More importantly, is the fact, that

Patricia Worthy of Howard University (respondent in
judicial panel 2009) was part to the DC Judicial
Nomination Commission, as a member, with Judge
Robinson, Judge Friedman and Judge Norma H. Johnson.
See 28 U.S.C. 455 a, bl, b2, b4; Also see Liljeberg v.
Health Services Acquisition Corp. 486 U.S. 847 (1988)
108 S. Ct. 2194.
As previously stated, Howard University is a defendant
in this case along with Patrick Swygert and Ronald
Walters of Howard University. On the board of trustees
31

at Howard University is Dick Parson of Parent Company
Time Warner, and subsidaries Warner Brothers, HBO, and
New Line Cinema. These entities are all White & Case
LLP and Wallpark LLC Investors clients associated with
Judge Friedman and his spouse Elizabeth Friedman of
Nixon & Peabody LLP, having pecuniary interest in
petitioner's cases. See 28 U.S.C. 455 a, bl, b2, b4;
Also see Liljeberg v. Health Services Acquisition Corp.
486 U.S. 847 (1988) 108 S. Ct. 2194
In short, Judge Friedman, a former employee of Delegate
Norton's 1990 and 1992 political campaigns and Judicial
Nomination Commission was disgualified to preside on
petitioner's 11 cases related to Whitehead v. Gates,
Norton, 92cv917. In addition, Judge Friedman presided
on the related case Whitehead v. Deutch, 96cv420
(Delegate Norton as a material witness) . 28 U.S.C.
Section 455 a, bl, b2, b4, b5i,ii,iii, iv.

Also see

Litkey v. United States, 510 U.S. 540,554
(1994)("Opinions formed by the judge on the basis of
facts introduced or events...) .

The court retaliated

32

against the petitioner for his former employer Delegate
Norton and his pecuniary interest tied -to White & Case
LLP and Wallpark LLC investors and associates.
In addition, petitioner believes and assert that Judges
Johnson and Robinson were also disqualified to preside
on petitioner's cases, including Judge Robinson's
presiding on petitioner's aunt's case in re: Linda J.
Smith v. Barry, 96cvl006 in association with attorney
Jepunah Lawrence (Retaliation). 28 U.S.C. Section 455
a, bl.
In 1990, Petitioner had an ex parte communication with
Circuit Judge Douglas Ginsburg, withdrawing his- Supreme
Court Nomination due to previous drug use.

Judge

Ginsburg later presided on petitioner's case in
Whitehead v. Paramount Pictures, et al., 96-7212,
related to Whitehead v. Paramount Pictures, 96cvl616,
before, Judge Robinson, and related cases involving
this petition.

33

T*

5. In 2009, Circuit Judges Ginsburg, Merritt Garland
and Brett Kavanaugh presided on petitioner's cases in
re: Whitehead v. Paramount Pictures, et al., 08-8010,
Whitehead v. FEC, FCC, et al., 08-8016 and Whitehead
v. CBS Viacom, et al., 08-8015, having conflicts of
interest, stated in petitioner's attached exhibits
and the court's judicial opinions (2009).
6. Judge Kavanaugh worked on Bush Cheney 2000, and Bush
v. Gore, 2000, with Judge Friedman's law firm White &
Case LLP tied to Judge Friedman and Wallpark LLC
investors also representing Governor Bush in Bush v.
Gore, 2000. White & Case LLP associated with Judge
Friedman via Wallpark LLC represented Attorney
Kavanaugh's employer, Texas Governor George W. Bush,
in re: Bush v. Gore, 2000.

Moreover, the court

worked at Harvard University law school, and paneled
with Judge Garland, who was President of Harvard
University's Board of Overseers with members Lucy
Fisher of Columbia Pictures and CAA (Creative Artist
Agency) and Dr. Eve Higginsbotham of Howard

34

University.

Ms. Fisher and Dr. Higginsbotham are

employees for the respondents. 28 U.S.C. Section 455
a, bl, b2, Also see Liljeberg v. Health Services
Acquisition Corp. 486 U.S. 847

(1988) 108 S. Ct.

2194; Also see Litkey v. United States,
510 U.S. 540,. 554 (1994)

("Opinions formed by the

judge on the basis of facts introduced or events...) .
7.Judge Garland as previously stated presided on panel
with Judges Kavanaugh and Ginsburg. Judge Garland as
President of Harvard University Board of Overseers
with Defendant's witnesses: Lucy Fisher and Dr.
Higginsbotham, ruled adversely against petitioner
regarding Judge Friedman's recusal violating the
federal statutes.

For instance, Judge Friedman, as

General partner in White & Case and Wallpark LLC
investors Enterprise dismissed 11 of the petitioner's
cases for White & Case LLP and Wallpark LLC
Investor's clients. Judge Garland held pecuniary
interest in the case as well which violates the
statutes. 28 U.S.C. Section 455 a, bl, b2,b4. Also

35

see Liljeberg v. Health Services Acquisition Corp.
486 U.S. 847 (1988) 108 S. Ct. 2194.
8.Judge Ginsburg associated with case in re: Whitehead
v. Paramount Pictures, et al., 96-7212, presided on
petitioner's cases with Judges Garland and Kavanaugh.
Judge Ginsburg held pecuniary interest in Warner
Brothers, another defendant-respondent in the case.
In addition, Judge Ginsburg held pecuniary interest
in Stephens Family Inc, associated with Stephens Inc.
Stephens Inc., is named in the 1996 Senate
investigation involving campaign financial (Clinton,
Gore, and Viacom's Blockbuster Deals in Thailand). In
short, Judges Ginsburg, Kavanaugh and Garland were
disgualified in petitioner's cases associated with
Judge Friedman and others. 28 U.S.C. Section 455 a,
bl, b4; also see Also see Liljeberg v. Health
Services Acquisition Corp. 486 U.S. 847
Ct. 2194;

(1988) 108 S.

Also see Litkey v. United States,

510 U.S. 540,. 554 (1994)

("Opinions formed by the

judge on the basis of facts introduced or events...) .

36

9. On or about 2020, Petitioner filed a motion to
vacate , (Recall Mandates) and consolidated the above
related cases in the Circuit Court. The Circuit Court
failed to issue an order in Whitehead v. Paramount
Pictures, et al., 96-7212, and in the remaining cases
in re: Whitehead v. Paramount Pictures, et al., 088010, Whitehead v. FEC, FCC, et al., 08-8016 and
Whitehead v. CBS Viacom, et al., 08-8015, which gives
the high court discretion to grant certiorari, and/or
order judicial review of the above subject matters and
cases in the lower courts (related to recall mandates).
Currently, pending before the Circuit Court (2020) is
petitioner paying sanctions in related cases.
Petitioner had paid initial reguired sanctions prior to
the (2009 panel) orders in Whitehead v. Paramount
Pictures, 08-8010, Whitehead v. FEC, FCC, et al., 088016 and Whitehead v. CBS Viacom, et al., 08-8015.

See

attached exhibits and orders. The 2009 panel of judges
ordered the additional sanctions to be paid.

This

panel has serious conflicts of interest, protecting the

37

respondents in the cases resulting to fraud on the
court, requiring judicial review by the high court.
See Marbury v. Madison, 1803.
In short, petitioner believes and assert that the
Circuit Court was required to issue separate or joint
opinions relating to Recall Mandates and other claims
for relief the above cases, but the court failed to do
so in violation of the statutes.

Moreover, the court

was also required to rule on the merits of the
petitioner's motion (judicial review) 5th and 14th
amendments, unseal FBI probe, even in part, however,
violated petitioner's constitutional rights for
fundamental fairness.

The 2009 Circuit Court involved

in this matter sanctioned petitioner after he paid
initial sanctions. This panel as noted had serious
conflicts of interest, requiring the high court to
grant petitioner's writ.
10.

Circuit Judge Judith Rogers gave Judge Friedman
a $250 gift which was reported in Judge Friedman's
1999 financial disclosure statements. Judge Rogers
38

presided on petitioner's cases before Judge
Friedman, and sanctioned the petitioner, which
involves adverse decisions of the (2009 Judicial
Panel) and (2020 Judicial Panel) regarding the
fraudulent sanctions filed against petitioner by
the court. The latter panel (2020) should allow
judicial review, but denied relief. The assignment
of the cases by recused Judge Lamberth is also an
issue in violation of the statutes.

28 U.S.C.

Section 455.
REASONS FOR GRANTING THE WRIT
&

Grounds for Reversal
(1)

Fraud on the court involving the partnership and
organizational membership and association of the
jurists (Judges Robinson and Friedman) on the
District of Columbia Judicial Nomination
Commission established by Delegate Norton, a
defendant in Whitehead v. Gates, Norton, 92-917,
and Delegate Norton a

material witness in re:

Whitehead v. Deutch, 96cv420, before Judge
39

Friedman.

See Liljeberg v. Health Services

Acquisition Corp. 486 U.S. 847

(1988) 108 S. Ct.

2194 .
(2)

Fraudalent sanctions were ordered against
petitioner pertaining to Judge Rogers giving
Judge Friedman a $250 gift and presiding on
petitioner's appeals involving Judge Friedman,
and the court, Judge Rogers sanctioning him,
leading to added sanctions. See Rule 60 b 6
(miscarriage of Justice).

(3) Circuit Court's Judge Garland's disqualification
due to Board membership at Harvard University involving
Lucy Fisher of Creative Artist Agency (CAA) and
respondent Columbia Pictures, and Dr. Higginsbotham of
respondent Howard University.

Ms. Fisher and Dr.

Higginsbotham are employees of the defendants (Columbia
Pictures and Howard University) are material witnesses.
Judge Garland's pecuniary interest in the related cases
in violating of the federal statutes. 28 U.S.C. Section
455 a, bl, b4, as amended. Also see See Liljeberg v.

40

Health Services Acquisition Corp. 486 U.S. 847 (1988)
108 S. Ct. 2194;
(4) Board memberships with Judges Johnson, Robinson and
Friedman associated with the DC Judicial Nomination
Commission tied to Howard University's Patricia Worthy,
also a board member on the commission. See Liljeberg v.
Health Services Acquisition Corp. 486 U.S. 847

(1988)

108 S. Ct. 2194; Also see Litkey v. United States,
510 U.S. 540, 554 (1994)

("Opinions formed by the judge

on the basis of facts introduced or events...; also see
judicial Conflicts and Prior knowledge doctrine").
(5) Judge Ginsburg. The court's prior knowledge and
pecuniary interest in Warner Brothers and Stephens
Family Inc is disqualifying. 28 U.S.C. Section 455 a,
bl, b4. Moreover, as stated Judge Ginsburg had ex parte
communications with the petitioner on his Supreme Court
nomination which was withdrawn. Petitioner advised the
Judge that he should not have withdrawn his nomination
to the high court due to prior drug use (1990).

This

statement did not sit well with the court, which caused
41

judicial retaliation and obstruction of justice. Litkey
v. United States, 510 U.S. 540, 554 (1994. Judge
Ginsburg had bias towards the petitioner, and the court
also held pecuniary interest in the litigation (1996).
28 U.S.C. Section 455 a, bl, b4.
(5)Judge Kavanaugh's prior knowledge and association
with Bush v. Gore, 2000 and Presidential Campaign Bush
& Cheney, 2000 associated with White & Case LLP,
Wallpark LLC and Judge Friedman and others reguires
judicial review and order Circuit Court to rule on
recalling mandates. Both Attorney Kavanaugh and White &
Case Attorney George Terwillinger, along with other
attorneys represented Texas Governor George W. Bush in
Bush v. Gore, 2000.

In 2000, Judge Friedman was part

to White & Case and Wallpark LLC investors operations
and enterprise during the year 1994-2011. 28 U.S.C.
Section 455 a, bl, b2, b4, b5i,ii, iii, iv, and 3clc.
(6) Petitioner' believes and assert that the 2020 (DC
Circuit Court)panel also have conflicts of interest,
failing to provide judicial review to recall mandates
42

based on serious judicial fraud of the (2009 DC Circuit
panel)involving Judges Ginsburg, Garland and Kavanaugh.
Moreover, petitioner believes and assert that it is
unclear on whether Circuit Judge John Owen of the 9th
Circuit and formerly "O'Melveny and Myers LLP was in
contact with the current Chief Judge Sri Srinivasan of the
DC Circuit and "O'Melveny and Myers LLP, involvement
with this case.

Judge Srinivasan is a close friend of

Judge Owen formerly of "O'Melveny and Myers LLP, who
ruled adversely against the petitioner, in California,
although the court was also at O'Melveny, when Judge
Friedman presided on petitioner's cases with O'Melveny
& Myers as opposing counsel representing MGM Inc, Time
Warner and Warner Brothers before Judge Friedman.
Further noting that both O'Melveny & Myers and White &
Case LLP associated with,Judge Friedman have the same
clients. 28 U.S.C. Section 455 a, bl, b2, b4.
7. Opposing Counsels from Williams and Connolly,
O'Melveny and Myers, and Clearly Gottlieb associated
with the petitioner's related cases before Judge
Friedman knew about Judge Friedman's association with
43

Wallpark LLC and White & Case LLP and partners and
former partners and spouses during the litigation,
which touches the basis of fraud and public corruption.
See Rule 28 U.S.C Section 455 a, bl, b4, b5;
b; Rule 60 b 3; and 60 b6;

Rule 60

Hazel Atlas, 322 U.S. 238,

64 S. Ct. 997 88 L. Ed 1250 (1944); Baltia Air Lines v.
Transactional Mgmt Inc, 98 F.3d 640, 642 (DC Cir.
1996)(citing bribery of a judge or attorney's knowing
of the perjury testimony). For instance, serious
evidence clearly show that White & Case LLP, Williams
and Connolly .and 0"Melveny& Myers and Cleary Gottlieb,
had same clients, when Judge Friedman dismissed 11 of
petitioner's cases in favor for White & Case LLP and
Wallpark Investors Enterprise associated with the
court-Judge. 18 U.S.C. Section 1962 c.

." See UNITED

STATES v. TURKETTE, 452 U. S. 576, 583, (1981) " Also see
BOYLE v. UNITED STATES (2009) ("to establish a RICO associationin-fact "enterprise," the Government must prove (1) an ongoing
organization with a framework, formal or informal, for carrying
out its objectives, and (2) that association members functioned
as a continuing unit to achieve a common purpose...".

(8) The high court in US v. Beggerlv allows independent actions such
as cases similar to this case (l) Judge Robinson involving conflicts
(DC Judicial Nomination Commission) and fraud on the court, to
(2) Judge Friedman, involving fraud on the court General
44

Partnership with White & Case LLP, Partners, spouses and
associates and Wallpark LLC Investors). Judge Robinson
presided on petitioner’s aunt’s case against the District of
Columbia Government, while the court presided on DC Judicial
Nomination Commission established by Delegate Norton. See US
v. Beggerlv. 524 U.S. 38, 118, S. Ct. 1862 141 L. ed. 2d 32 (1998);
28 U.S.C. Section 455 a, b1, b2, b3, b4.

(9) Judge Friedman denied petitioner’s attorney Daniel J. Henry’s
second motion for leave to amend complaint. Once Attorney Henry
entered his appearance in October 1998, he and Attorneys Theresa
Watson and Dr. Elizabeth Pawlak amended the complaint which was
striking to the alleged copyright allegation. Judge Friedman denied
Attorney Henry’s motion for leave to amend and granted summary
judgment without discovery violating the statutes. See Foman v.
Davis. 371, U.S. 178, 83 S. Ct. 227, 9 L. Ed. 2d 222 (1962); Also see
Bowden v. U.S. 176 F.3d 552 (D.C. Cir. 1999) (Alternative motions to
dismiss and for summary judgment are not responsive pleadings and
therefore, do not nullify plaintiffs right to amend); Also see Shaver v.
Operating Engineers Local 428 Pension Trust Fund 332, F.3d 1198
45

(9th Cir. 2003) (“motion to dismiss not responsive pleading, thus
plaintiff retained absolute right to amend complaint”).
More importantly, the court was associated with White & Case LLP
and Wallpark investors pertaining their client’s interest, sued by
petitioner in this case. Moreover, the opposing counsels represented
the same clients associated with the court’s pecuniary interest and
serious conflicts of interest. 18 U.S.C. Section 1962 C.
10. Judge Richard Roberts held pecuniary interest in the petitioner’s
litigation in Whitehead v. CBS Viacom, et al. Moreover, Judge
Roberts had ex parte communication with petitioner relating to
the play “The Rise Fall & Rise of A Mayor-The Life of Marion S.
Barry”, whereas, the court prosecuted the former D.C. Mayor.
Litkey v. United States, 510 U.S. 540,554 (1994);
28 U.S.C. Section 455 a, bl, b4. Also see DC
Circuit decision on Judges reading books and
recusal in cases.

11.The main argument pertains to the (2000 DC Circuit Court Panel)
decision denying petitioner’s motion and not issuing judicial
review, to recall mandates of the case and related cases based on
46

fraud on the court and other conflicts of interest of the (2009 DC
Circuit Court panel), violates petitioner’s constitutional rights (5th
and 14th amendments.
12. Judge Robinson and Judge Ginsburg both had serious conflicts of
interest relating to their participation in the petitioner’s cases
(Whitehead v. Paramount Pictures, et al., 96-1616 and 96-7212).
28 U.S.C. Section 455 a, bl, b2, b3, b4.
CONCLUSION
In conclusion, petitioner prays that the court will grant his motion and
remand case back to the lower Circuit Court for judicial review.
Petitioner prays that the court grant certiorari or in
the alternative order judicial review by the District
of Columbia Circuit Court.

See attached Appendix records and

Exhibits 1, filed with the Circuit Court. In addition, see exhibits 2, 3

and 4^ ^ f 0*7

ft ? .

Respectfully,
David L. Whitehead
1906 Scott St.
Bossier, Louisiana 71111
Email: daouddavidlouis@yahoo.com
Date: May 14, 2021
47

